Office of Inspector General  



           Review of the
      Bureau of Enforcement’s
     Compliance Audit Program

             OR12-01




            March 2012


FEDERAL MARITIME COMMISSION
                              FEDERAL MARITIME COMMISSION
                                  Office of Inspector General
                                   Washington DC 20573

                                       March 2, 2012

Office of Inspector General



Mr. Chairman and Commissioners,

The Office of Inspector General (OIG) completed its review of the Bureau of
Enforcement’s (BOE) compliance audit program. The review objective was to assess the
overall effectiveness of the program. Specifically, we evaluated controls in place to
ensure the accuracy of responses from industry on questionnaires used by BOE in the
audit process, reviewed program performance measures and workflow tracking
mechanisms and documented program accomplishments. Finally, we assessed BOE’s
follow-up processes to validate corrective action. Our review followed Inspection
Standards issued by the Council of the Inspectors General on Integrity and Efficiency,
January 2011.

The compliance audit program enables agency staff to assess Ocean Transportation
Intermediary compliance with Commission regulations. The program generally works
well, meets program objectives, and produces results: 96 percent of the audits in the
OIGs sample found at least one noncompliance issue. Many had multiple findings.

The BOE director exercises adequate supervision over the audit process, approving both
audit notifications and closures. Staff indicated that the director is consulted routinely
when unusual or difficult issues arise. Both the director and staff were very
knowledgeable about the audit process and outcomes.

While the process works well, we observed areas where some improvement is possible.
The office has not fully transitioned to an automated tracking system. Rather, it relies on
a manual log to produce quarterly and annual quantitative-based reports. BOE does not
capture qualitative information, such as a summation of the compliance issues found in
the audits it performs. For example, 63 percent of the audits reviewed by the OIG found
tariff compliance issues. Sharing this information with Federal Maritime Commission
decision makers and with other licensees via our website would enable the Commission
to broaden its outreach, address recurring issues and educate licensees. We believe such
reports can be prepared without costly automated processes involved.

BOE, working with the Bureau of Certification and Licensing (BCL), should ensure all
licensees are aware of the compliance audit program. While the regulations state that the
licensee must turn over information at the FMC’s request, no specific reference is made
to the compliance audit. OTIs essentially learn of the program when they are selected for
audit. We suggest that the BCL add language in its transmittal letter sent to new
licensees to specifically put them on notice that they are subject to audit. Knowing that
they may be audited would likely enhance OTI compliance throughout their operations.

The OIG also suggested improvement in the area of notifications to auditees regarding
audit closure and standard operating procedures. Details on these findings, and
recommendations to address them, are provided in the attached report. Management has
agreed with our recommendations and presented an action plan. Management’s response,
in its entirety, is appended to this report. We thank BOE managers and staff for their
assistance to us throughout the audit.

                                             Respectfully submitted,




                                             /Adam R. Trzeciak/
                                             Inspector General




                                            2
                                 Office of Inspector General
                            Review of the Bureau of Enforcement’s
                                 Compliance Audit Program


Introduction

        Bureau of Enforcement (BOE) acts as the prosecutorial arm of the Commission to
investigate potential violations of the Shipping Act and other statutes and regulations enforced
by the Commission. In addition, BOE administers the compliance audit program. This
program, conducted from headquarters primarily by mail, reviews the operations of licensed
ocean transportation intermediaries (OTI) to assist them in complying with statutory
requirements and the Commission’s regulations.

       In prior years, the agency relied on area representatives in its field offices to perform
compliance audits. Due to the closing and downsizing of field offices, the responsibility to
perform compliance audits was placed in BOE.

        BOE performs approximately 100 compliance audits annually. The selection of OTIs to
audit is based on random selection by geographical location or risk. The Registered Person
Index (RPI), a Commission database containing OTI license and bond information and status, is
the primary source document used by BOE to identify its audit universe. In addition, BOE
receives requests from other offices within the Commission, such as the Bureau of Certification
and Licensing (BCL), the Office of Consumer Affairs and Dispute Resolution Services
(CADRS) and the Bureau of Trade Analysis (BTA), to select OTIs for audit based on concerns
raised by these offices.

       Once an OTI is selected for an audit, BOE staff performs preliminary fieldwork by
accessing information on the OTI from internal databases, including SERVCON, Form FMC-1
and Form FMC-18, and outside database services, including PIERS, Datamyne and individual
OTI tariff publishers.

                                     Commission’s Databases

      Identification of the internal and external sources used in the compliance audit and how
BOE staff uses the information is provided below:

       SERVCON (Service Contract) is the Commission’s electronic service contract filing
       system. SERVCON enables Commission staff to review and process service contracts,
       non-vessel operating common-carrier (NVOCC) Service Arrangements (NSA) and
       amendments filed by ocean carriers and NVOCCs.

       SERVCON is used in the compliance audit process to obtain information on the effective
       date of the service contract, the OTI’s address and officers, and the number of current
       contracts into which the entity has entered.
       Form FMC-1, Automated Tariff Registration System, facilitates the registration of tariff
       publication locations by NVOCCs and vessel-operating common carriers (VOCC), as
       required by Section 8 of the Shipping Act of 1984. Tariff publication provides the
       shipping public with information on price and service options to move particular
       commodities from point to point.

       Form FMC-1 is used during compliance audits to obtain information on the legal name of
       the OTI, its address and tariff location. Information collected on tariff rates and rules is a
       focal point of the compliance audit.

       Form FMC-18 Application for a License as an Ocean Transportation Intermediary, is
       filed by entities applying for an FMC license. Each licensed entity is required to have an
       individual identified as the Qualifying Individual (QI), who is an active officer of the
       entity and meets character and minimum experience requirements. Licenses issued
       include ocean freight forwarder (FF), NVOCC or NVOCC/FF. Summary information
       from Form FMC-18 is maintained in the RPI.

       Compliance staff relies on the RPI to identify the universe of OTIs and, for each OTI, the
       address, president and QI, financial responsibility (bond) coverage, and OTI status and
       type, e.g., FF, NVOCC, NVOCC/FF including foreign-registered Non-Vessel Operators
       (NVO).

                                 Other Information Sources Used

       PIERS, the Port Import Export Reporting Service, collects import and export waterborne
       data from the U.S. Customs and Border Protection Automated Manifest System and other
       trading partners. PIERS provides up-to-date OTI addresses to the compliance staff and
       detailed information on departure date, commodity, destination country and U.S. origin
       port. Such information helps the compliance staff to assess tariff compliance and identify
       shipments involving the subject OTI.

       Datamyne is a subscriber database that provides international trade data from the bill of
       lading and other shipping records. Information downloaded is used for purposes similar
       to PIERS, although the information focuses on import shipments.

       Tariff Publisher is an entity that publishes the NVOCC / OTI rules and rates to move
       various commodities. The tariff must be published on or before transportation service
       can commence. (46 CFR Part 520)

       The tariff provides the compliance staff with information on whether the OTI is shipping
       commodities under published rules and rates.

        After the compliance staff reviews the information sources and databases, an opening
memo is prepared for the BOE director’s approval. The opening memo contains staff’s
recommendation to open an audit and includes potential audit concerns and issues staff may have
from its preliminary review. Potential areas of concern could involve bond information, tariff

                                                 2
rate filings, PIERS shipment manifests, service contracts and/or the qualifying individual. The
director reviews and approves the opening memo and signs the letter to the OTI requesting a
response to the appropriate questionnaire (NVOCC, FF or NVOCC/FF) within 30 days of the
date of the letter.

        When questionnaires are returned, BOE staff reviews the responses for actual or potential
areas of non-compliance and for consistency with information already gathered during staff’s
preliminary review. When necessary, compliance audit staff requests additional information or
clarification to enable staff to determine compliance with Commission regulations.

        After the compliance staff determines that the OTI is complying with shipping
regulations, the staff prepares a closing memo for the BOE director’s signature. Information
related to the compliance audit is entered into BOE’s HEAR database and manual tracking log.
The HEAR database provides information on enforcement cases and compliance audits and is
used by BOE and other select FMC staff.


Objectives, Scope and Methodology

       The objective of this program inspection was to assess the overall effectiveness of the
compliance audit program. Specifically, we (i) reviewed the controls in place to ensure the
accuracy of responses from industry on questionnaires used by BOE in the audit process, (ii)
assessed program performance measures and reporting processes, (iii) documented program
accomplishments, and (iv) reviewed BOE’s follow-up processes to validate corrective actions.

        The Office of Inspector General (OIG) began the review by identifying the universe of
compliance audits opened in fiscal year (FY) 2011 from BOE’s manual tracking log. 1 Based on
this review, we documented 100 audits opened in FY 2011; ninety one (91) audits were closed in
FY 2011. We selected 46 closed audits for detailed review, stratified by OTI category (i.e.,
NVOCC, FF or NVOCC/FF). For our sample, we tested the dates on which BOE opened the
audit and notified the OTI of the audit, the timing of the OTI response to BOE and the date on
which BOE closed the audit. We also documented and identified the audit selection process, the
data sources used by BOE to perform the audit, the compliance issues identified in the audit
process and the audits referred to field operations for further investigation.

        We interviewed BOE management and staff to supplement our understanding of the audit
selection process, audit methodology, response verification, management oversight and audit
closing. We also participated in a “walk-through” of the bureau’s HEAR database to better
understand how it is used to manage the compliance audit program and reviewed companion
manual logs maintained by compliance audit program staff.

      The review followed Inspection Standards issued by the Council of the Inspectors
General on Integrity and Efficiency, January 2011.

1
 We relied on BOE’s database and did not perform an independent verification of the number of audits opened in
FY 2011.

                                                       3
Introduction to Findings

        The compliance audit program is used to assess whether OTIs are complying with agency
regulations and maritime statutes. We found this program generally works well and meets the
program objective of assisting OTIs to comply with statutory requirements and Commission
regulations. The process used to select OTIs for audit ensures geographical representation and
relies on FMC bureaus and offices to identify at-risk entities. The proportion of OTIs selected
for audit mirrored the OTI population. There are controls in place to ensure adequate supervision
by the BOE director and the validity of the OTI’s responses to the compliance audit
questionnaire. The audits have produced results: 96 percent of the audits we reviewed identified
one or more findings of non-compliance with Commission regulations, which were resolved
before the audit was closed. Audits remain open until all findings are addressed. This follow up
process works well.

        The OIG also identified areas where some improvements are possible. For example, the
office lacks written procedures that would help to ensure a smooth transition should current staff
leave the agency or become incapacitated. While the director’s involvement would undoubtedly
mitigate potential “learning curve” challenges for new staff, Government Accountability Office
standards on internal controls strongly favor written Standard Operating Procedures (SOP).
Within BOE, we envision a step-by-step process identifying, at a minimum, how OTIs are
selected, which databases are used to collect information and how the information is used.

        BOE is currently using two databases to house compliance audit information and
outcomes. The HEAR database is an automated database that is used to store information (start
and end date, company audited, audit summaries, etc) about each audit. But the database was
designed for enforcement case tracking; thus compliance audit results do not fit easily or
logically into the data fields. Further, information retrieval for the purpose of report summaries
is cumbersome. For reporting purposes, BOE relies on a manual log maintained by staff to
prepare its quarterly reports to the Office of the Managing Director (OMD). These reports focus
on the number of audits opened and closed each quarter. Importantly, there is no summary
report prepared identifying compliance issues or findings, a report the OIG believes would be
especially useful to OMD and the Commission. Without the need to design a system around the
audit program, BOE could develop a simple checklist of compliance issues that staff could use to
identify and later summarize for reporting to OMD and the Commission.

       Details on these and other audit findings are provided below.



Finding 1.     Management Exercises Oversight of the Compliance Audit Program

        BOE has controls in place to identify, conduct and close compliance audits. The primary
control observed was supervisory review. The director is actively involved in all stages of the
audit, and staff indicated to us that it routinely seeks guidance without hesitation when
challenging audit issues arise. The BOE director approves all audits to be performed and decides
when the audit can be closed.


                                                4
        Auditees (i.e., OTIs) are provided adequate notice of the audit and given sufficient time
to respond. Each auditee receives a letter from the BOE director stating the audit objectives, a
due date for completing the enclosed questionnaire and regulations identifying BOE’s authority
to request information. If the OTI has not responded to the questionnaire within 30 days as
requested, BOE staff follows up with another letter, either by facsimile or through e-mail,
requesting immediate attention with a response due within two weeks. This letter reminds the
OTI that the 30-day deadline has passed, and, if needed, the Commission’s area representative
may contact and/or visit the OTI to assist the OTI to complete the questionnaire.

         The response rate of our sample of 46 FY 2011 audits indicates that compliance with
audit requirements among the industry is good. We found that 27 OTIs (59 percent) responded
to BOE within the 30-day requirement identified in the letter, and another 13 OTIs (28 percent)
responded with 45 days. Six OTIs (13 percent) responded within 46 - 128 days. BOE explained
that of the six late responses, two resulted from the OTI’s need to meet with a tariff publisher for
clarification or assistance, and one auditee had a medical condition which delayed his response.
Three auditees did not provide a reason for their late responses. 2 The BOE director told the OIG
that these six OTIs never left the bureau’s “radar screen.” According to the BOE director,
additional steps, to include the threat of possible license revocation, would be used if the time
period became excessive.

       Once BOE has received responses from the OTI, the information is reviewed and verified
with preliminary information from the Commission’s databases and third-party sources. BOE
has adequate verification procedures in place to ensure that OTI responses are independently
supportable. These procedures include reconciliation with FMC and third party maritime
databases. Any information provided on the questionnaire that does not agree with information
obtained from an independent source document requires further inquiry by BOE to assess
compliance with the Commission’s regulations and statues.

BOE has not set targets for audit completion. The audit process is influenced by responsiveness
of OTIs and deadlines would not be in the control of BOE. Importantly, no audits are closed
until all matters have been verified resolved. Table 1 provides information on the lapsed times
between audit commencement (receipt of questionnaire from the OTI) and completion (closing
memo):




2
  BOE does not ask the OTI to provide reasons for late responses, although many will provide this information
voluntarily when responding.

                                                        5
                    Table 1. FY 2011 Compliance Audit Fieldwork – Lapsed Days
                                             (n = 46)


                                    Day Range      Occurrences
                                     0 - 25            33
                                     26 - 50            8
                                     51 - 75            3
                                       76+             2

        The table indicates that 33, or 72 percent of the compliance audits in our sample, were
completed in 25 days or less. Lapsed days include the time BOE waits for a response from the
auditee to clarify an answer or to provide documentation to support a response. Exchanges
between BOE and the auditee are natural parts of the audit and necessary steps to ensure that
BOE can make an informed decision on compliance, based on what BOE needs to see, and not
necessarily what was initially provided to BOE with the questionnaire. We did not view the time
lapsed to be excessive given the nature of the audit process.

        The OIG believes that the BOE director’s practice to approve audit selection,
commencement and closure is a good management control and is in keeping with the Standards
for Internal Control in the Federal Government, issued by the Government Accountability
Office, which states, in part, that control activities should occur at all levels and functions, and
include activities such as approvals, authorizations, and verification. The BOE director told the
OIG that, currently, BOE does not send out a closing memo to the OTI unless it is requested by
the OTI. The director suspects that most OTIs would conclude that once requested information
is provided, the audit process is over. Notwithstanding, the OIG believes that a form letter or
some acknowledgment that all information has been accepted and, as a result, the findings
closed, would provide closure for the OTI without ambiguity.

       Recommendation 1. The Bureau of Enforcement should develop a pro forma notice to
       send to OTIs announcing the completion of the compliance audit.



Finding 2.     Standard Operating Procedures are Needed for the Compliance Audit Program

       The objective of FMC’s system of management accountability and internal control is to
provide reasonable assurance that:

   •   Programs achieve their intended results;
   •   Resources are used consistent with the agency’s mission;
   •   Programs and resources are protected from waste, fraud, and mismanagement; and
   •   Laws and regulations are followed, and reliable and timely information is obtained,
       maintained, reported and used for decision-making.



                                                  6
        FMC office directors are required to complete an internal control self assessment
annually. The assessment asks managers to identify internal control weaknesses within their
programs and to become familiar with Office of Management and Budget Circular A-123,
Management’s Responsibility for Internal Control. The intent is to help managers improve the
accountability and effectiveness of Commission programs and operations by establishing,
assessing, correcting and reporting on management controls. Commission Order 103,
Management (Internal) Controls, provides policy direction to be followed to improve the
accountability and effectiveness of Commission programs and operations.

        We found that BOE lacks SOPs for its compliance audit program. The director
acknowledged that the program is operating without documented procedures but believes that
adequate guidance is provided on the questionnaire and notification letter (i.e., how the audit will
be conducted based on what will be reviewed). However, the OIG noted that these documents
do not provide information on how an OTI is selected for audit, how referrals are addressed and
processed, preliminary fieldwork (which independent databases to use and what to look for), etc.
The benefit of documented procedures is especially important when a function is performed by
one person. Should that person leave or become incapacitated, there would be delays in
transitioning this function to new staff. We have no doubt that the director or other senior
bureau staff would provide adequate training and supervision to new staff, but this would pull
senior staff away from its duties.

        An effective internal control over transactions and other significant events in the
compliance audit program begins with a clear, documented process. To enhance efficiency and
effectiveness of the compliance audit program, BOE should document its procedures and update
them when needed.

       Recommendation 2. The Bureau of Enforcement develops and maintains standard
       operating procedures for the compliance audit program.



Finding 3.     Selection of OTIs for Review

        The selection of OTIs for a compliance audit is best categorized as a “modified random
selection.” OTIs are grouped by geographic location and selections are made from this universe.
The intent is to ensure geographic representation. In addition to this process, BOE receives audit
requests from bureaus and offices within the agency, e.g., BCL, CADRS and BTA, to perform
audits on OTIs that have raised programmatic concerns. For example, BTA may refer licensees
who did not post a tariff; CADRS may refer an OTI who has been the subject of frequent
consumer complaints about its practices. BCL may refer new licensees when information on the
application, although compliant, raises concerns with BCL’s experienced staff regarding
operations, such as Qualifying Individual concerns. Eleven (11) percent of our sample audits
originated from referrals to BOE.

     The Commission issues approximately 400 – 500 licenses each year. In the late 1990’s,
Commission investigative staff performed post-license compliance checks of FFs two years after

                                                 7
the license was issued and compliance checks on all other licensees every 5 – 10 years. As of
December 2011, there were 4,482 active FF, NVOCC and NVOCC/FF licenses. In addition,
there were 1196 registered unlicensed foreign-based NVOs and 135 Vessel Operators (VO),
giving BOE an audit universe of about 5,800 NVOs/VOs. Due to staffing constraints, BOE can
audit only about 100 OTIs a year; about 1.7 percent of the population. BOE staff believes that
more resources devoted to the function would have a corresponding positive impact on the
office’s ability to monitor and correct non-compliance and has requested additional staff in the
budget process to meet this need. We agree with BOE management that the program produces
positive outcomes and additional resources would have an immediate impact.

        In addition to the number of audits performed, we also looked at how representative
existing audits are compared to the general population. The OIG analysis revealed that BOE
generally selects NVOCCs and VOCCs for audit in the same proportion as each appears in the
population. For example, 29 percent of the OTIs had a joint NVOCC/FF license; 37 percent of
audits performed by BOE were of NVOCC/FF licensees. With the exception of freight
forwarders, OTIs are proportionally represented in the audits. Table 2 provides a snapshot of the
ratio of licenses issued to compliance audits opened by BOE.

                                            Table 2. OTI Audit Ratio
                                              (as of December 2011)


                                                                               FY 2011   Percentage
                                         Licensed or        Percentage
                                                                                Audits    of BOE
                  OTIs                     Foreign            of OTI
                                                                               Opened      Audits
                                         Registrant         Population
                                                                               by BOE     Opened
      Freight Forwarders (FF)                 1048              18%                5        5%
      NVOCC Note A                            2926              51%               56       56%
      NVOCC/FF                                1698              29%               37       37%
      Vessel-operating CC                      135               2%                2        2%
      TOTAL                                   5807              100%             100       100%

Note A. The OIG includes both domestically licensed and foreign registered NVOs here.




Finding 4.         Functionality of the HEAR Database

       BOE’s HEAR database hosts information on both its enforcement cases and the
compliance audit program. As it relates to the compliance audit program, data in the system
provides information on various stages of the audit, such as when an audit was opened and
closed. HEAR also houses auditee name, audit status and a synopsis of the audit findings; all
very useful information.




                                                            8
        Although the HEAR database is a repository of information, it is not optimally used to
manage the audit function or to produce reports. This is due to HEAR’s functionality, not
management’s inattention. The BOE director explained that HEAR was developed with
enforcement cases in mind. As a result, information produced in the compliance audit is not
compatible with HEAR’s functionality. For example, HEAR cannot generate summary reports
by time period or audit results, such as number of audits opened and closed for a given period of
time. HEAR is capable of retrieving information individually by case and type of entity but only
if the user knows the compliance number or the entity’s business name. Even printing case
information is cumbersome. The fields cannot be adjusted; consequently, case summaries appear
in narrow fields, requiring several pages of mostly wasted paper (blank columns) to capture all
text.

       The changes needed to address the HEAR shortcomings lie outside the BOE and within
the Office of Information Technology. The BOE director told us that with larger concerns facing
the agency’s information technology (IT) capabilities, he has not sought to enhance the
functionality of the HEAR database.

        To extract what data elements it needs for external reporting purposes, BOE has relied on
a manual log to prepare quarterly reports identifying the number of audits opened and closed
during the reporting period. The manual log contains a tracking number for each audit and
identifies the date the compliance audit was opened, entity name and the audit closing date.
The information is reported to senior management in quarterly reports and in the agency’s
annual report.

        We found the maintenance of the audit tracking function to be cumbersome, involving
three different databases or logs. For example, compliance staff record select information about
each audit in the manual log which is then used to prepare quarterly and annual reports. Identical
information is recorded in the HEAR database, along with an audit finding synopsis. Finally, a
manual index system is used to identify whether the subjects of the compliance audit had been
looked at in prior audits or enforcement actions. The index system contains only the names of
the parties to the audit (or investigation) and its primary purpose is to identify repeat audit (or
investigative) subjects, e.g., prior instances in which the same subject was the target.

        The OIG believes that one automated database that collects all compliance audit
information and produces management reports would be more efficient than the systems
currently used in BOE. We also agree, however, with the BOE director that IT needs are greater
in other areas of the Commission. To enhance the utility of the audit, BOE does not require
expensive IT enhancements. BOE simply needs a process to summarize its audit findings for
senior management and the Commission.

       Information obtained during the audit process can be used to provide insight into
potential and actual problems and trends. This information can then be fed back into the
programs as a management tool to proactively address compliance issues.

       BOE reports on its compliance activity quarterly in memorandums to the Managing
Director and annually in the Commission’s Annual Report. In these reports, BOE identifies the

                                                9
number of compliance audits opened, completed and pending. The quarterly (internal) report
also identifies auditees. However, the report does not provide a summary of the audit findings
resulting from the audits. We envision a semiannual report identifying the top three or five
compliance findings to Commissioners, senior managers and bureau directors. In our detailed
review of 46 files, we identified the following compliance issues 3 :

                                   Table 3. Findings of Noncompliance
                                                  (n=46)

                              Compliance Issues                          TOTAL
                              Tariff                                       37
                              Address Change                                8
                              Branch Office                                 3
                              Voluntary Surrender of License                1
                              Improper Fee Scheming                         2
                              No Issues                                     2
                              Qualifying Individual                         1 
                              Trade Name                                    1 
                              Bond Cancelled                                1 
                              Doing Business As                             1 
                              License                                       1 
                              Negotiable Rate Agreement                     1 


        A sample report could include tariff, address correction and branch office omissions as
areas to monitor, and for which regulatory changes could be considered if compliance issues
persist. To assist BOE, we recommend that a simple checklist be developed and included in the
audit file. Audit staff could recognize the issue(s) identified in the audit, make a notation on the
checklist, and, on a semiannual basis, provide a summary list of the most frequently occurring
compliance issues to the chairman, commissioners and senior management, and posted to the
web for review by agency customers.

        Recommendation 3. BOE should develop a checklist of possible compliance-related
        findings for inclusion in each compliance folder with the intent of preparing
        semiannual summary reports for the Commission, senior management, and the
        agency’s website, identifying the top compliance-related findings during the prior six
        month period.




3
  Audits often produce multiple findings. Consequently, the total findings exceed the 46 compliance audit files we
reviewed.

                                                        10
Finding 5.    License Award Letter should Serve Notice of Potential for Audit

        The OIG noted that the license letter sent to new OTIs with the license document does
not put new licensees on notice that the FMC may be auditing their operations at some future
date. Licensees may conclude that, once they have the license, their dealings with the FMC are
finished. The OIG believes that, much like the Internal Revenue Service, the threat of an audit
helps to encourage compliance with tax laws. Similarly, the threat of an audit, albeit with
significantly less potential consequences for most licensees, could encourage compliance with
regulations. Currently, letters sent to auditees include the following regulation:

       Upon the request of any authorized representative of the Commission, a licensee shall
       make available promptly for inspection or reproduction all records and books of account
       in connection with its ocean transportation intermediary business, and shall respond
       promptly to any lawful inquiries by such representatives. (46 CFR 515.31(g))

        While the regulation is meant to provide guidance on the FMC’s authority, it is provided
after the OTI is selected for audit. We believe providing information on the compliance audit
program before the auditee is selected, for all new licensees, would improve compliance.

        A simple paragraph stating that the FMC performs routine audits on its licensees and
providing a brief explanation of the audit would serve notice that the FMC will ensure that OTIs
follow its regulations.

       Recommendation 4. BOE should work with the Bureau of Certification and Licensing
       to add language to the license notification letter advising of the compliance audit
       program.



Summary

        The OIG found that the compliance audit program works well and accomplishes the
program objective of ensuring compliance with Commission regulations. Controls exist in the
program to ensure that resources are used efficiently and effectively. Performance measures, to
include lapsed time and OTI responsiveness, indicate that the program is efficiently managed.
One measure of results - that 96 percent of the auditees are out of compliance with at least one
rule or regulation - indicates that devoting more resources to this program would increase
performance; more audits would be performed and compliance rates would improve. But adding
resources here would, by necessity, reduce resources elsewhere.

        One step that BOE should consider is to post the compliance results on the FMC website.
Currently, compliance is enhanced one OTI at a time through the audits. Results are poorly
publicized outside of a few offices within the Commission. By letting other OTIs know what the
FMC is finding by posting the top non-compliance findings on the web, we suspect that some
non-compliant OTIs may make changes to get into compliance. Clearly, OTIs who are
indifferent to the regulations will not benefit from this change, but we believe that many others


                                               11
may not know they have fallen out of compliance. They could benefit from the audits of other
OTIs, thus increasing coverage of the program without expending more resources.

        Before results can be posted, BOE must develop a procedure to capture audit compliance
findings. More than just numbers of audits, the outcome of audits is critical to an understanding
of where the agency may need to increase its compliance and enforcement efforts. Currently the
databases used by BOE cannot capture this information and report it easily. Because so few
audits are performed (about eight per month) a manual checklist can be used to identify
noncompliance issues arising from each audit, with a master checklist to summarize results from
individual checklists on a semiannual basis. An automated system would be nice to have, but we
believe that a manual checklist would work fine in this environment.

        Audits help OTIs to identify and change noncompliant practices. The OIG feels that, for
some, just the “threat” of an audit may keep some OTIs in compliance with Commission
regulations. Currently, new licensees are not told about the compliance audit program directly;
they are told only that they must comply with agency information requests. We believe that
alerting new licensees to the compliance audit program at the time the license is received will
serve, for many, as an inducement to monitor their own compliance.




                                               12
UNITED STATES GOVERNMENT                                     FEDERAL MARITIME COMMISSION


Memorandum

TO          :    Inspector General                                DATE: February 29, 2012



FROM        :    Director, BOE



THROUGH:         /Managing Director/



SUBJECT :        Review of the Bureau of Enforcement Compliance Audit Program


I have reviewed the recommendations contained in the instant review. Immediately below are
responses to your recommendations.

Recommendation 1. The OIG recommends that the BOE develop a pro forma notice to send to
OTIs announcing the completion of the compliance audit.

Management Response: BOE will develop and implement a process of sending a pro forma
notice to all OTIs who complete the compliance audit process, beginning no later than April 2,
2012.


Recommendation 2. The OIG recommends that the BOE develop and maintain standard
operating procedures for the compliance audit program.

Management Response: BOE will develop and maintain standard operating procedures
governing the compliance audit program, beginning no later than April 2, 2012.


Recommendation 3. The OIG recommends that BOE develop a checklist of possible
compliance-related findings for inclusion in each compliance folder with the intent of preparing
semiannual summary reports for the Commission, senior management and the agency’s website,
identifying the top compliance-related findings during the prior six month period.
Management Response: BOE will create a checklist of audit findings for use and inclusion in
each compliance audit file by April 2, 2012. Information on the most frequent audit findings will
be transmitted semi-annually to the Managing Director for the consideration of the Commission,
beginning with the BOE’s quarterly reports to OMD due in July 2012. A description of the
compliance audit program, together with a summary list of the most frequent audit findings, also
will be included on the Commission’s website on BOE’s page, with updates made as necessary,
beginning no later than July 2, 2012.


Recommendation 4. The OIG recommends that BOE work with the BCL to add language to
the license notification letter advising of the compliance audit program.

Management Response: BOE will coordinate with BCL upon the inclusion of language in the
appropriate license notification letter advising that OTIs are subject to the compliance audit
program. Such text will be incorporated into BCL’s letters beginning no later than April 2, 2012.




                                            /Peter J. King/
